 

IN THE
Supreme Court of the Anited States

 

DONALD J. TRUMP,
PRESIDENT OF THE UNITED STATES, ET AL.,

Appellants,
Vv.

STATE OF NEW YORK, ET AL.,
Appellees.

CERTIFICATE OF SERVICE

 

I, Brianne J. Gorod, do hereby declare that on November 16, 2020, as required
by Supreme Court Rule 29.5, I have served by first-class mail, postage pre-paid, the
Brief of Members of Congress as Amici Curiae in Support of Appellees on counsel for

each party to the above proceedings as follows:

Jeffrey B. Wall Dale E. Ho

Acting Solicitor General Director, Voting Rights Project

United States Dep’t of Justice American Civil Liberties Union

950 Pennsylvania Ave., N.W. 125 Broad St.

Washington, DC 20530-0001 New York, NY 10004
SupremeCtBriefs@USDOJ.gov dale.ho@aclu.org

(202) 514-2217 (212) 549-2693

Counsel of Record for Appellants Counsel of Record for Appellees
Donald J. Trump, President of the New York Immigration Coalition, et al.

United States, et al.
Barbara Dale Underwood
Solicitor General
Office of the Attorney General
28 Liberty St.
New York, NY 10005-1400
barbara.underwood@ag.ny.gov
(212) 416-8016

Counsel of Record for Appellees
State of New York, et al.
 

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 16, 2020.

“liaison Hrud) tw
Brianne J: { 13

Counsel for ae Curiae
